TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Treasury Inspector General for Tax
                Administration – Federal Information Security
                Management Act Report for Fiscal Year 2008



                                      September 10, 2008

                              Reference Number: 2008-20-173




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                Background
The Federal Information Security Management Act (FISMA)1 requires each Federal Government
agency to report annually to the Office of Management and Budget on the effectiveness of its
security programs. In addition, the FISMA requires that each agency shall have performed an
annual independent evaluation of the information security program and practices of that agency.
In compliance with the FISMA requirements, the Treasury Inspector General for Tax
Administration performs the annual independent evaluation of the information security program
and practices of the Internal Revenue Service.
The Office of Management and Budget provides information security performance measures by
which each agency is evaluated for the FISMA review. The Office of Management and Budget
uses the information from the agencies and independent evaluations to help assess
agency-specific and Federal Government-wide security performance, develop its annual security
report to Congress, assist in improving and maintaining adequate agency security performance,
and assist in the development of the E-Government Scorecard under the President’s Management
Agenda.
Attached is the Treasury Inspector General for Tax Administration Fiscal Year 2008 FISMA
report. The report was forwarded to the Treasury Inspector General for consolidation into a
report issued to the Department of the Treasury Chief Information Officer.




1
    Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002).
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             September 10, 2008


 MEMORANDUM FOR DEPUTY INSPECTOR GENERAL FOR AUDIT
                OFFICE OF THE TREASURY INSPECTOR GENERAL

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Treasury Inspector General for Tax Administration – Federal
                              Information Security Management Act Report for Fiscal Year 2008
                              (Audit # 200820024)

 We are pleased to submit the Treasury Inspector General for Tax Administration’s Federal
 Information Security Management Act (FISMA)1 report for Fiscal Year 2008. The FISMA
 requires the Office of Inspector General to perform an annual independent evaluation of
 information security policies, procedures, and practices and compliance with FISMA
 requirements. As such, this report presents the results of our independent evaluation of the
 Internal Revenue Service’s (IRS) information technology security program.
 We based our evaluation on the Office of Management and Budget (OMB) FISMA reporting
 guidelines for 2008 and the answers to the questionnaire published with the OMB guidelines
 (see Attachment I). During the 2008 evaluation period,2 we also conducted nine audits to
 evaluate the adequacy of information security in the IRS (see Attachment II). We considered the
 results of those audits when making our assessment. Major contributors to this report are listed
 in Attachment III.
 To complete our review, we evaluated a representative sample of 22 IRS information systems to
 assess the quality of the certification and accreditation process. For these systems, we also
 assessed the annual testing of controls for continuous monitoring, testing of Information
 Technology Contingency Plans, and quality of the Plan of Action and Milestones process. We



 1
  Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002).
 2
  The FISMA evaluation period for the Department of the Treasury is July 1, 2007, through June 30, 2008.
 Hereafter, all references to 2008 refer to the FISMA evaluation period.
                          Treasury Inspector General for Tax Administration –
                         Federal Information Security Management Act Report
                                         for Fiscal Year 2008


conducted separate tests to evaluate processes for inventory accuracy, configuration
management, incident reporting, awareness training, and information privacy.
Overall, the IRS has made steady progress in complying with FISMA requirements since
enactment of the FISMA in 2002, and it continues to place a high priority on efforts to improve
its security program. We observed significant improvements in the areas of security that we had
identified as needing improvement in our 2007 FISMA evaluation.3 In addition, during 2008, the
IRS Modernization and Information Technology Services organization Cybersecurity office took
steps to achieve efficiencies in the certification and accreditation process. It realigned its general
support system structure by functional rather than physical boundaries, which reduced the
number of general support systems and improved mapping to applications. It also streamlined
the certification and accreditation process for low-impact systems to reduce costs and improve
scheduling capabilities. During 2008, the IRS certified and accredited the last of its systems that
had not previously been assessed through a National Institute of Standards and Technology
(NIST)4-compliant certification and accreditation process. The IRS also continued to work
closely in seeking guidance and concurrence on FISMA issues with the Treasury Inspector
General for Tax Administration and the Department of the Treasury Chief Information Officer to
improve compliance with the NIST and FISMA requirements.
Our evaluation of the IRS’ 2008 performance against specific OMB security measures and our
audit work performed during 2008 show that while the IRS improved its certification and
accreditation process, more needs to be done to adequately secure its systems and data. The
most significant area of concern is implementation of configuration management standards.
Attachment I provides our responses to the OMB FISMA questions for the Inspector General.
We are confident that the IRS systems inventory is substantially complete, the Plan of Action
and Milestones process is adequate to ensure the remediation of security weaknesses, and
policies and procedures are followed for reporting computer security incidents. Provided in this
document are security performance improvements as well as areas that require additional
attention.
Certification and Accreditation Process The IRS has made significant progress in its
certification and accreditation process. Therefore, this year we evaluate this process as good.
However, the IRS needs to continue to improve the process to ensure that the level of annual
security controls and contingency plan testing is sufficient.




3
  Treasury Inspector General for Tax Administration – Federal Information Security Management Act Report for
Fiscal Year 2007 (Reference Number 2007-20-186, dated September 4, 2007).
4
  The NIST, under the Department of Commerce, is responsible for developing standards and guidelines, including
minimum requirements for providing adequate information security for all Federal Government agency operations
and assets.
                                                                                                                  2
                           Treasury Inspector General for Tax Administration –
                          Federal Information Security Management Act Report
                                          for Fiscal Year 2008


The OMB guidelines for minimum security controls in Federal Government information systems
require that all systems be certified and accredited every 3 years or when major system changes
occur. The NIST provides guidelines for conducting the certifications and accreditations. In our
2007 FISMA evaluation, we reported that the IRS had implemented a satisfactory certification
and accreditation process. This year the IRS completed this implementation, and it has now
subjected all systems to the process. We evaluated the quality of the certification and
accreditation process for all 11 of the systems in our sample of 22 that were certified and
accredited in 2008. We determined that all 11 systems were properly certified and accredited in
accordance with NIST guidelines.
For the remaining systems in our sample, we reviewed the adequacy of annual testing of security
controls for continuous monitoring. The IRS made significant progress this year in this area. An
appropriate subset of management, operational, and technical controls was selected, documented,
and approved for each of the 11 systems we reviewed. However, the testing of operational and
technical controls needs improvement and does not meet NIST and IRS guidelines. Overall,
28 percent of the controls were not sufficiently tested for the 11 systems from our sample.
Thirty-seven percent of the operational controls were not adequately tested, and 67 percent of the
technical controls were not adequately tested. These tests were limited to examining certification
and accreditation documentation without securing evidence from the system. As a result, some
tests were insufficient to identify controls that might not be operating as intended to protect the
systems and data.
We also examined the IRS’ testing of Information Technology Contingency Plans, which has
improved in the past year. This year the IRS implemented a revised testing program and
improved its testing guidance. Our review of the 22 systems in our sample determined that
adequate tabletop5 testing was performed for all systems. In addition, the IRS performed
functional testing for the 10 systems in our sample for which this testing was required. However,
improvements are needed to ensure that testing meets Department of the Treasury and IRS
guidelines:
    •   Supporting documentation for 4 of the 10 functional tests did not adequately support
        testing results for verifying readability of backup tapes retrieved during the tests.
    •   The IRS has not developed criteria to assess the timeliness of retrieving backup tapes
        from offsite locations. In addition, the IRS did not compute the time for retrieving
        backup tapes in any of the 10 functional tests.
    •   The IRS performed only a limited test of timeliness for offsite retrieval of backup tapes,
        including those from offsite vendors, during other than normal working hours. The IRS
        conducted this test for only one system and did not document the results. IRS

5
  Participants in tabletop exercises walk through the contingency plan procedures to ensure that the documentation
reflects the ability to adequately perform the tasks outlined without any recovery operations actually occurring.
                                                                                                                     3
                           Treasury Inspector General for Tax Administration –
                          Federal Information Security Management Act Report
                                          for Fiscal Year 2008


        management informed us that this was a cost-based decision due to the limited funding
        for these tests.
    •   Testing plans and results did not include a description of the sampling methodology used
        for retrieving and validating the readability of backup files. IRS procedures recommend
        that a sample of files, rather than the entire population, be selected for testing and that the
        sample be selected at random.
Plan of Action and Milestones Process The IRS has an agency-wide process for managing
Plans of Action and Milestones, which generally includes incorporating findings from our audit
reports. However, our findings reported in 2008 were not included in the IRS Plan of Action and
Milestones process as they had been in prior years. Based on our discussions with IRS
management, we determined that responsibilities for this part of the Plan of Action and
Milestones process were inadequately transferred between employees.
Privacy Requirements During the past year, the IRS has continued to take steps to better
protect the privacy of taxpayers. We determined that a Privacy Impact Assessment6 was
prepared according to IRS guidelines for each of the 22 systems in our representative sample.
The IRS has also taken steps to implement OMB requirements for safeguarding against and
responding to the breach of personally identifiable information (PII). The IRS has developed
plans to respond to PII breaches and to reduce the use of Social Security Numbers. In 2008, the
IRS also conducted a program to refresh employee awareness of existing policies and procedures
about encrypting, safeguarding, and protecting sensitive information. As a result, we are
evaluating the IRS’ progress in implementing OMB requirements for safeguarding against and
responding to breaches of PII as good.
However, we continue to have concerns about the IRS’ overall ability to adequately protect PII.
In particular, weaknesses in access controls, audit trails, and system configuration settings
directly affect the IRS’ ability to protect PII. In 2008, our audits continued to identify
weaknesses in the IRS’ ability to adequately secure its systems and protect PII. Attachment II
presents a list of these reports.
Security Configurations The OMB requires agencies to have configuration guides in place to
ensure consistent implementation of software across the agency. The IRS has an agency-wide
security configuration policy but needs to do more to ensure that information systems apply
common security configurations established by the NIST.
The IRS provided test results that demonstrated an overall rate of 71 percent to 80 percent for
implementing security configurations. In general, we agreed with the IRS’ compliance
assessment, with one exception. The IRS used external scanning software to assess compliance


6
 This is an analysis of how personal information is collected, stored, shared, and managed in a Federal Government
system.
                                                                                                                 4
                               Treasury Inspector General for Tax Administration –
                              Federal Information Security Management Act Report
                                              for Fiscal Year 2008


for one of its most heavily used database products instead of using a scanner that can
authenticate to the database and assess internal database configurations.
During our evaluation, we also identified software used by the IRS for which compliance with
NIST or IRS standard configurations was not reported. The software includes firewalls, systems
management computers, web servers, handheld device servers, and mainframes. The software
should be included in the IRS’ 2009 FISMA assessment.
In this year’s assessment, the OMB also requires an evaluation of agency progress in
implementing the Federal Desktop Core Configuration (FDCC) standard configurations. We are
currently conducting an audit in this area and will further evaluate the IRS’ progress in
implementing these configurations. Our evaluation below is based on the IRS’ progress as of
June 30, 2008.
The IRS has adopted the FDCC standard configurations in its workstation security policies and
compliance assessment tools. It has documented 11 deviations from the FDCC and the business
reasons why the settings cannot be implemented, which have been reported along with other
noncompliant settings to the Department of the Treasury. The IRS continues to test FDCC
standard configurations and therefore has only partially implemented the FDCC. Based on
guidance from the OMB that partial implementation is acceptable, and because the IRS followed
the Department of the Treasury process for reporting deviations, we determined that the agency
has adopted and implemented FDCC standard configurations and has documented deviations.
The IRS has also included new Federal Acquisition Regulation7 language in three contracts that
we were able to review and has issued guidance on this requirement.
However, we were unable to confirm that the IRS has implemented FDCC standard
configurations on all Windows workstations. The OMB permits implementation to include those
settings for which deviations have been documented. The IRS is currently testing settings to
determine whether they can be implemented; it has confirmed compliance with 89 FDCC
settings in its test environment. However, the IRS has not yet validated that these settings are
implemented on IRS workstations. The IRS compliance assessment tool, recently configured to
assess compliance with some FDCC settings, is in the initial stages of assessing IRS
workstations. Therefore, we cannot validate that FDCC settings are implemented on all IRS
workstations.
Electronic Authentication Risk Assessments Last year we reported that the IRS completed
electronic authentication (e-authentication) risk assessments for its systems. While our review
this year continued to find that e-authentication risk assessments are completed, we do not have
confidence that applications have operationally achieved the required assurance level in
accordance with NIST Electronic Authentication Guidelines (Special Publication 800-63).


7
    48 C.F.R. ch. 1 (2006).
                                                                                                   5
                        Treasury Inspector General for Tax Administration –
                       Federal Information Security Management Act Report
                                       for Fiscal Year 2008


We agree with the IRS’ inventory of e-authentication applications and did not identify any
additional applications that should be included. However, the IRS has not consistently validated
the operation of e-authentication controls. The OMB requires Federal Government agencies to
conduct a final validation confirming that systems achieve the required e-authentication
assurance level. This validation should be performed as part of required security procedures,
such as certification and accreditation or annual testing. We determined that three of the five
e-authentication applications did not include e-authentication validation tests during certification
and accreditation. The IRS has acknowledged the need to improve its e-authentication process
and plans to revise its process for validating e-authentication assurance levels during the
2009 FISMA reporting period.
Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant
Inspector General for Audit (Information Systems Programs), at (202) 622-8510.




                                                                                                   6
           Treasury Inspector General for Tax Administration –
          Federal Information Security Management Act Report
                           for Fiscal Year 2008



                                                      Attachment I

Details of the Treasury Inspector General for Tax
  Administration Federal Information Security
            Management Act Analysis




                                                                 Page 7
 Treasury Inspector General for Tax Administration –
Federal Information Security Management Act Report
                 for Fiscal Year 2008




                                                       Page 8
 Treasury Inspector General for Tax Administration –
Federal Information Security Management Act Report
                 for Fiscal Year 2008




                                                       Page 9
 Treasury Inspector General for Tax Administration –
Federal Information Security Management Act Report
                 for Fiscal Year 2008




                                                       Page 10
 Treasury Inspector General for Tax Administration –
Federal Information Security Management Act Report
                 for Fiscal Year 2008




                                                       Page 11
                      Treasury Inspector General for Tax Administration –
                     Federal Information Security Management Act Report
                                      for Fiscal Year 2008



                                                                           Attachment II

  Treasury Inspector General for Tax Administration
   Information Technology Security Reports Issued
          During the 2008 Evaluation Period

1. Effectiveness of Access Controls Over System Administrator User Accounts Can Be
   Improved (Reference Number 2007-20-161, dated September 19, 2007).
2. Lack of Proper IRS Oversight of the Department of the Treasury HSPD-12 Initiative
   Resulted in Misuse of Federal Government Resources (Reference Number 2008-20-030,
   dated December 14, 2007).
3. Internal Revenue Service Databases Continue to Be Susceptible to Penetration Attacks
   (Reference Number 2008-20-029, dated December 14, 2007).
4. Improvements Are Needed to the Information Security Program Governance Process
   (Reference Number 2008-20-076, dated March 11, 2008).
5. Actions Are Needed to Improve the Effectiveness of the Physical Security Program
   (Reference Number 2008-20-077, dated March 13, 2008).
6. Inadequate Security Controls Over Routers and Switches Jeopardize Sensitive Taxpayer
   Information (Reference Number 2008-20-071, dated March 26, 2008).
7. Private Collection Agencies Adequately Protected Taxpayer Data (Reference
   Number 2008-20-078, dated March 26, 2008).
8. Control Weaknesses at Internal Revenue Service Internet Connections Increase Security
   Risks (Reference Number 2008-20-143, dated July 17, 2008).
9. Unauthorized and Insecure Internal Web Servers Are Connected to the Internal Revenue
   Service Network (Reference Number 2008-20-159, dated August 26, 2008).




                                                                                      Page 12
                      Treasury Inspector General for Tax Administration –
                     Federal Information Security Management Act Report
                                      for Fiscal Year 2008



                                                                          Attachment III

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Stephen Mullins, Director
Michael Howard, Audit Manager
Alan Beber, Senior Auditor
Richard Borst, Senior Auditor
Charles Ekunwe, Senior Auditor
Myron Gulley, Senior Auditor
Jody Kitazono, Senior Auditor
Thomas Nacinovich, Senior Auditor
Midori Ohno, Senior Auditor
Joan Raniolo, Senior Auditor
Jefferson Lee, Program Analyst




                                                                                     Page 13
